               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




          Monitoring of Government
        Travel Card Transactions in the
                 Western Area

         Management Advisory Report




                                              December 9, 2013

Report Number DP-MA-14-001
                                                                    December 9, 2013

                                            Monitoring of Government Travel Card
                                                Transactions in the Western Area

                                                       Report Number DP-MA-14-001



BACKGROUND:
The U. S. Postal Service uses the           WHAT THE OIG FOUND:
Government Services Administration          The Western Area travel card
SmartPay2® Program to administer the        coordinators effectively monitored most
travel card program. Citibank, the Postal   government travel card transactions.
Service’s travel card provider, issues      However, travel card coordinators can
VISA branded SmartPay2 cards to             better monitor cash advances.
Postal Service employees for use while      Specifically, we identified 157 instances
on official travel. Employees can use the   totaling more than $25,000 of
card for transportation, lodging, and       inappropriate cash withdrawals for travel
other travel related services when on       advances from April 2012 through
official business. Postal Service policy    March 2013. We referred some of these
states that employees may not use the       withdrawals to our office of
government travel card for personal         investigations.
business and limits cash advances to
$50 per day of official travel.             WHAT THE OIG RECOMMENDED:
                                            The Western Area took corrective
Each Postal Service area and district       actions during the course of our review
office has a travel card coordinator to     and therefore, this report does not
help administer the program. The            contain any recommendations.
coordinators monitor travel card            Specifically, the Western Area
transactions and identify unauthorized      distributed a Citibank Travel Card
purchases and transactions that could       Monitoring Standard Operating
indicate misuse or unusual activity.        Procedure to all travel card coordinators
                                            outlining coordinator duties and
There were 2,220 government travel          responsibilities. Additionally, the Postal
cardholders in the Western Area that        Service provided Citibank Custom
used their travel card from April 2012      Reporting System training to all Citibank
through March 2013. This included           coordinators. The training included new
1,415 cash advances for about               reporting tools to aid travel card
$241,242 and 27,008 purchase                coordinators in monitoring cash advance
transactions totaling about $5 million.     and purchase transactions.
Our objective was to determine whether
Postal Service travel card coordinators     Management reviewed and agreed with
in the Western Area were effectively        this report and they are not required to
monitoring government travel card           comment on its contents since there
transactions.                               were no recommendations.
                                            Link to review the entire report
December 9, 2013

MEMORANDUM FOR:            DREW T. ALIPERTO
                           VICE PRESIDENT, WESTERN AREA OPERATIONS




FROM:                      Darrell E. Benjamin, Jr.
                           Deputy Assistant Inspector General
                            for Revenue and Performance

SUBJECT:                   Audit Report – Monitoring of Government Travel Card
                           Transactions in the Western Area
                           (Report Number DP-MA-14-001)

This report presents the results of our review of the Monitoring of Government Travel
Card Transactions in the Western Area (Project Number 13RG028DP000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin H. Ellenberger, director,
Data Analysis and Performance, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Monitoring of Government Travel Card Transactions                                                                  DP-MA-14-001
 in the Western Area



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Monitoring of Cash Advances ......................................................................................... 2

Appendix A: Additional Information ................................................................................. 4

   Background ................................................................................................................. 4

   Objective, Scope, and Methodology ............................................................................ 4

   Prior Audit Coverage ................................................................................................... 6

Appendix B: Other Impact ............................................................................................... 8
Monitoring of Government Travel Card Transactions                                                     DP-MA-14-001
 in the Western Area



Introduction

This report presents the results of our review of monitoring of government travel card
transactions in the Western Area (Project Number 13RG028DP000). Our objective
was to determine whether U.S. Postal Service travel card coordinators in the Western
Area were effectively monitoring government travel card transactions. This review was
self-initiated. See Appendix A for additional information about this review.

The Postal Service provides individual government travel cards to designated
employees for use while on official travel. Postal Service policy governs employees’ and
is responsible for all charges and automated teller machine (ATM) withdrawals.
However, using the government travel cards is governed by Postal Service policy.1 This
includes prohibiting employees from using the card for personal business.

The Western Area designated 13 Postal Service employees, one at the Western Area
office and one in each district, as travel card coordinators to monitor the government
travel card transactions of cardholders assigned to the Western Area.2 To assist the
travel card coordinators, Citibank® produces reports showing card activity. As of
June 2013, travel card coordinators are responsible for reviewing Citibank reports for
compliance with policies set forth in Handbook F-15. Using these reports, travel card
coordinators are required to monitor government travel card purchase transactions for
non-travel related activity or potential misuse and cash advances greater than $50 per
travel day. The travel card coordinators also examine transactions that indicate potential
misuse by reviewing travel expense reports contained in the Postal Service eTravel 3
system to determine if the transactions are related to official travel.

There were 2,220 government travel cardholders in the Western Area that used their
travel card from April 2012 through March 2013. This includes 1,415 cash
advance transactions for about $241,242 and 27,008 purchase transactions totaling
about $5 million.

Conclusion

Western Area travel card coordinators effectively monitored most government travel
card transactions. However, travel card coordinators can better monitor cash advances.
Specifically, we identified 157 instances totaling $25,430 of inappropriate cash
withdrawals for travel advances from April 2012 through March 2013. We consider
these cash withdrawals as other impact, see Appendix B.


1
  Handbook F-15, Travel and Relocation, May 2011.
2
  The Western Area office is located in Denver, CO, and has 12 districts (Alaska, Arizona, Central Plains, Colorado-
Wyoming, Dakotas, Hawkeye, Mid-America, Nevada-Sierra, Northland, Portland, Salt Lake City, and Seattle) with
Citibank travel card coordinators.
3
  eTravel is a Web-based system that automates the expense management process. The eTravel system enables
Postal Service employees to manage their business travel expenses; create, review, and submit expense reports;
and, access policy compliance information.
                                                         1
Monitoring of Government Travel Card Transactions                                                       DP-MA-14-001
 in the Western Area


We are not making any recommendations in this report. Management agreed with this
report and they are not required and did not choose to comment on its contents since
there were no recommendations.

The corrective actions already taken during the review should resolve the issue
identified, therefore, we made no recommendations in this report.

Monitoring of Cash Advances

Travel card coordinators can better monitor cash advances. Our review of 328 high risk
cash advances4 identified 157 cash advances unrelated to official travel or in excess of
the amount Postal Service policy allows.5 Specifically, we noted:

   102 cash advances with no related official travel.6

   51 cash advances where employees took cash in excess of the limit of ($50 a day or
    $350 a week).7

   Four instances where employees took their advance more than 5 days before the
    trip.8

Travel card coordinators were not aware of the indicators that would alert them to this
potential misuse because they had not received official training until June 2013. In
addition, some of the coordinators were new to the position and were not in place during
the scope of our audit. As a result, we identified more than $25,430 of inappropriate
cash advances from April 2012 through March 2013 that the coordinators did not detect.
This represents approximately 11 percent of all cash advances taken during this
period.9 Monitoring travel card transactions, such as cash advances, reduces the risk of
credit card delinquencies or negative publicity when employees use their travel card for
personal reasons. In addition, abuse of the travel card could negatively impact the
Postal Service’s contractual relationship with Citibank.

The Postal Service began training travel card coordinators in May 2013 on their duties
and responsibilities. The training provides the travel card coordinators access to
electronic reports and tools that help identify misuse and unusual activity.10 Additionally,
during our review, the Western Area distributed standard operating procedures for travel
card coordinators to use when monitoring travel card usage for potential fraud or abuse.


4
  These 328 travel cash advance transactions were from a travel advance report that listed travel advance
transactions without an airfare or lodging charge during the associated travel period.
5
  These cash advance transactions were made by 35 different employees.
6
  Handbook F-15, Section 3-2.4, dated May 2011.
7
  Handbook F-15, Section 4-2.1.2.
8
  Handbook F-15, Section 4-2.3.2.
9
  We referred certain instances of improper use of credit card transactions to our office of investigations.
10
   The Postal Service has access to Citibank online automated tools to monitor cardholder transactions and manage
compliance with Postal Service policies. Citibank refers to these tools as the Program Audit Tool which flags potential
travel card misuse and fraud.

                                                           2
Monitoring of Government Travel Card Transactions                              DP-MA-14-001
 in the Western Area


We believe these reports, tools, and procedures will enhance the travel card
coordinators’ ability to monitor travel card transactions, including cash advances.




                                                    3
Monitoring of Government Travel Card Transactions                                                    DP-MA-14-001
 in the Western Area



                                 Appendix A: Additional Information

Background

The Postal Service uses the Government Services Administration SmartPay2 Program
to administer the travel card program.11 Citibank, the Postal Service’s travel card
provider, issues VISA-branded SmartPay2 cards to Postal Service employees for use
while on official travel. The travel cards also provide access to ATMs. The Postal
Service established its policies for official business travel in Handbook F-15.

Employees can use individually billed12 travel cards for transportation, lodging, and
other travel related services when on official business. Postal Service policy states that
employees may not use their official government travel card for personal business and
limits cash advances to $50 per day of official travel.

Each Postal Service area and district office has a travel card coordinator to help
administer the program. Besides providing administrative support for employees, travel
card coordinators monitor and identify unauthorized purchases (such as purchase of
non-travel related items), inappropriate cash advances, and transactions that indicate
misuse or unusual activity charged to the travel card.

Objective, Scope, and Methodology

Our objective was to determine whether Postal Service travel card coordinators in the
Western Area were effectively monitoring government travel card transactions. To
accomplish this objective:

    We reviewed the VISA IntelliLink13 report for high risk transactions from April 2012
     through March 2013 to identify employees who potentially took ATM cash advances
     while not on official travel. We also tested for employees who withdrew excessive
     amounts of cash (over the allowable $50 per day of official travel), and who made
     cash withdrawals more than 5 days before the start of their travel.

    We reviewed the Citibank transaction history report from April 2012 through
     March 2013 to identify employees who used their travel card for purchases of
     personal items while not on official travel.

    We interviewed all 13 Western Area travel card coordinators to determine their
     knowledge of the roles and responsibilities associated with monitoring government
     travel card transactions.


11
   Manages a set of master contracts through which agencies, including the Postal Service, can obtain credit cards
for employees to accomplish their mission.
12
   Issued card to postal employee, the card is in their name, and charges are billed directly to them for payment.
13
   A web-based information-services application that allows access to information that can improve misuse detection.

                                                         4
Monitoring of Government Travel Card Transactions                           DP-MA-14-001
 in the Western Area


   We used the Postal Service eTravel system to research claims for travel
    reimbursement to determine whether employees were on official business during the
    period they made cash withdrawals and purchases using the travel card.

   We reviewed all cash advances to determine if any were made at gambling
    locations.

We conducted this review from July through December 2013, in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on November 25, 2013, and included their comments where appropriate.

We assessed the reliability of VISA IntelliLink and Citibank data by cross-validating
purchase and advance transactions against official travel recorded in eTravel and used
the responses of district travel card coordinators as additional validation. We
determined that the data were sufficiently reliable for the purposes of this report. We
also compared selected transactions to the eTravel system for accuracy and found the
data to be reliable for our purposes.




                                                    5
    Monitoring of Government Travel Card Transactions                                   DP-MA-14-001
     in the Western Area


    Prior Audit Coverage

                                                              Final       Monetary
                                                             Report        Impact
          Report Title            Report Number                Date     (in millions)
Monitoring of Government           DP-MA-13-004             8/30/2013       None
Travel Card Transactions in
the Northeast Area
Report Results: The Northeast Area travel card coordinators were effectively
monitoring government travel card transactions. We noted only minor instances of
potential improper uses of the travel card. The report contained no
recommendations.
Monitoring of Government            DP-MA-13-003       8/30/2013         None
Travel Card Transactions in
the Southern Area
Report Results: The Southern Area travel card coordinators were effectively
monitoring government travel card transactions. However, travel card coordinators
can improve the monitoring of cash advances. Specifically, we identified 211
instances, totaling more than $53,000, of inappropriate cash withdrawals for travel
advances from April 2012 through March 2013. Management took corrective action
during the audit as a result the report contained no recommendations.
Travel Expense                       FT-AR-12-014       9/27/2012             None
Reimbursements and Travel
Card Usage
Report Results: Postal Service employees improperly claimed expenses on their
travel reimbursements and inappropriately used their travel card. Approving
managers did not have a mechanism to adequately monitor travel card activity.
Also, the Postal Service did not have clear instructions explaining how to handle
canceled airfare expenses. As a result, the Postal Service was exposed to
inappropriate or fraudulent activity that could negatively affect its reputation.
Management agreed, in principle, with the recommendations.




                                                        6
    Monitoring of Government Travel Card Transactions                                  DP-MA-14-001
     in the Western Area




                                                              Final      Monetary
                                                             Report       Impact
          Report Title              Report Number             Date     (in millions)
Compliance With Travel               FF-AR-11-007           2/9/2011       $1.2
Policies and Opportunities for
Cost Savings
Report Results: Postal Service employees did not comply with prescribed
travel policies resulting in excessive travel costs for lodging and airfare in fiscal
years 2009 and 2010. We estimated the Postal Service could realize savings over
2 years by taking action to curtail employee noncompliance with travel policies.
Further, the Postal Service did not cancel credit cards issued to former employees,
including employees listed as deceased in employee records. Management agreed
with the findings and monetary impact and agreed, in principle, with the
recommendations.




                                                        7
Monitoring of Government Travel Card Transactions                                                    DP-MA-14-001
 in the Western Area



                                           Appendix B: Other Impact

                Finding                             Impact Category                           Amount
           Monitoring of                           Goodwill Branding14                      157 instances
           Cash Advances                                                                      valued at
                                                                                              $25,430

We identified 157 instances, totaling $25,430 of inappropriate cash withdrawals for
travel advances from April 2012 through March 2013.




14
     An actual or potential event or problem that could harm the reputation of the Postal Service.

                                                             8
